No.:

IN THE SUPREME COURT
OF THE UNITED STATES

IRVIN MORENO,
Petitioner,

DEWAYNE HENDRIX, Warden,
FCI Sheridan,
Respondent.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

Stephen R. Sady
Chief Deputy Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
(503) 326-2123
Attorney for Petitioner

QUESTION PRESENTED
In 18 U.S.C. § 3621(e)(2)(B), Congress authorized the Bureau of Prisons (BOP) to
grant a sentence reduction of up to one year for federal prisoners "convicted of a nonviolent
offense" who successfully complete in-prison residential drug abuse treatment. In addition
to statutory disqualifications, the regulation implementing the statute adds "current felony
conviction[s]" deemed as disqualifying and lists "prior felony or misdemeanor
conviction[s]" that also disqualify prisoners. 28 C.F.R. § 550.55(b)(4) & (5). The questions
presented are:
Did the BOP violate the plain meaning of the relevant sentencing statutes and
regulations by categorically disqualifying a prisoner convicted of a
nonviolent drug trafficking offense from eligibility for a sentence reduction
under 18 U.S.C. § 3621(e) based on a supervised release violation for a prior
conviction that is not included among the disqualifying prior offenses in 28
C.F.R. § 550.55(b)(4)?
II.

In the alternative, did the BOP violate §§ 553 and 706 of the Administrative
Procedure Act by promulgating what is functionally a substantive rule
without notice-and-comment that irrationally and arbitrarily denied the
petitioner categorical eligibility for a sentence reduction?

TABLE OF CONTENTS
Page
Table of Authorities
1.

Opinions Below

1

2.

Jurisdictional Statement.

2

3.

Relevant Constitutional And Statutory Provisions

2

4.

Summary Of Reasons For Granting The Petition

4

5.

Statement Of The Case

7

A.

6.

Litigation History Of The Sentence Reduction Under 18 U.S.C. §
3621(e) .w

7

Background And Purpose Of 18 U.S.C. § 3621(e)

7

A Majority Of Circuit Courts Of Appeal Held That The BOP's
1995 Regulation And Program Statement Conflicted With The
Statute's Definition Of A "Nonviolent Offense."

9

The BOP's 1997 Program Statement And Regulation Failed To
Address The 1995 Regulation's Inconsistencies With Statutory
Text And Congressional Purpose.

10

B.

Petitioner's Plea And Sentencing

14

C.

Petitioner's Pro Se Exhaustion Of Remedies

15

D.

Petitioner's Pro Se Requests For Habeas Corpus Relief

16

E.

Proceedings On Appeal

17

Reasons For Granting The Writ
A.

This Case Presents An Issue Of National Importance Regarding The
Expansion Of Executive Branch Law-Making Authority By
Deference To The Agency's Failure To Follow The Plain Language
Of Its Regulation As Well As The Underlying Criminal Statute.

20

20

This Case Presents An Issue Of National Importance Because The
Majority's Opinion Undermines Congressional Action To Provide An
Incentive For Treatment While Easing Over-Incarceration Of
Nonviolent Offenders In Federal Prisons.

23

The Present Case Provides An Excellent Vehicle For Reviewing The
Important Issues At Stake.

25

The Majority Opinion Is Incorrect

.26

In The Alternative, The Court Should Grant The Writ, Vacate The
Decision Below, And Remand For The Lower Court To Address The
Administrative Procedure Act In The First Instance.

29
31

Conclusion
INDEX TO APPENDIX

1

Ninth Circuit Memorandum Opinion
District Court Opinion and Order denying habeas corpus relief

14

District Court Opinion and Order denying reconsideration

18

Ninth Circuit Order denying rehearing

20

18 U.S.C. 3621(b)

21

18 U.S.C. 3621(e) ..a....

23

Bureau of Prisons Program Statement 5331.02

26

ii

TABLE OF AUTHORITIES
Page
SUPREME COURT OPINIONS
Abramski v. United States,
573 U.S. 169 (2014)

4

Auer v. Robbins,
519 U.S. 452 (1997)

20, 21, 22

Bowles v. Seminole Rock & Sand Co.,
325 U.S. 410 (1946)

20

Christensen v. Harris County,
529 U.S. 576 (2000)

29-30

Chrysler Corp. v. Brown,
441 U.S. 281 (1979)

29

Crandon v. United States,
494 U.S. 152 (1990)

4-5, 5

Guedes v. Bureau of Alcohol, Tobacco, Firearms & Explosives,
.. ................
.. . ...... .. ... ...
140 S. Ct. 789 (2020)

5-6

Gundy v. United States,
139 S. Ct. 2116 (2019)

5

Kisor v. Wilkie,
139 S. Ct. 2400 (2019)

-

Lopez v. Davis,
531 U.S. 230 (2001)

5, 20, 21, 22. 23, 26
4, 6, 7, 11, 29, 30

Motor Vehicle Mfrs. Ass 'n of US., Inc. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983)
Pereira v. Sessions,
138 S. Ct. 2105 (2018)

......

12
6

Perez v. Mortg. Bankers Ass'n,
575 U.S. 92 (2015)

20, 29

111

/

Stern v. Marshall,
564 U.S. 462 (2011)

2

United States v. Johnson,
529 U.S. 53 (2000)

17

United Student Aid Funds, Inc. v. Bible,
136 S. Ct. 1607 (2016)

20

FEDERAL COURT OPINIONS
Arrington v. Daniels,
516 F.3d 1106 (9th Cir. 2008)

:

4 44

•

"

12, 13, 29

Byrd v. Hasty,
142 F.3d 1395 (11th Cir. 1997)
Crickon v. Thomas,
579 F.3d 978 (9th Cir. 2009)

V1.•.• • • •••••• • • • • o • • . • ..........

12, 29

Downey v. Crabtree,
100 F.3d 662 (9th Cir. 1996)

9

Fristoe v. Thompson,
144 F.3d 627 (10th Cir. 1998).

9

Gardner v. Grandolsky,
585 F.3d 786 (3d Cir. 2009)

29

Gatewood v. Outlaw,
560 F.3d 843 (8th Cir. 2009)

29

Handley v. Chapman,
587 F.3d 273 (5th Cir. 2009)

29

Jacks v. Crabtree,
114 F.3d 983 (9th Cir. 1997)

10

Lewis v. Daniels,
528 F. Supp. 2d 1099 (D. Or. 2007)

7, 24, 26, 27

Licon v. Ledezma,
638 F.3d 1303 (10th Cir. 2011)

29

Martin v. Gerlinski,
133 F.3d 1076 (8th Cir. 1998)

ti
iv

9

Nat? Lifeline Ass'n V. Fed. Commc'ns Comm'n,
983 F.3d 498 (D.C. Cir. 2020)

22

Paulsen v. Daniels,
413 F.3d 999 (9th Cir. 2005)

11, 29

Peck v. Thomas,
697 F.3d 767 (9th Cir. 2012)

13

Pelissero v. Thompson,
170 F.3d 442 (4th Cir. 1999)

9

Reeb v. Thomas,
636 F.3d 1224 (9th Cir. 2011)

18, 30

Reynolds v. Thomas,
603 F.3d 1144 (9th Cir. 2010)

17

United States v. Adams,
934 F.3d 720 (7th Cir. 2019)

22

United States v. Broadway,
815 F. App'x 95 (8th Cir. 2020)

22

United States v. Crum,
934 F.3d 963 (9th Cir. 2019)

22

United States v. Tabb,
949 F.3d 81 (2d Cir. 2020)

.. . ..

••••••• ** • *** •

.

22

United States v. Havis,
927 F.3d 382 (6th Cir. 2019)

22

United States v. Lewis,
963 F.3d 16 (1st Cir. 2020)

22

United States v. Llewlyn,
879 F.3d 1291 (11th Cir. 2018)

28

United States v. Martinez,
602 F.3d 1166 (10th Cir. 2010)

22

United States v. Nasir,
982 F.3d 144 (3d Cir. 2020)

22, 23

United States v. Paskow,
11 F.3d 873 (9th Cir. 1993)

18

United States v. Winstead,
890 F.3d 1082 (D.C. Cir. 2018)

22

Venegas v. Henman,
126 F.3d 760 (5th Cir. 1997)

9

UNITED STATES CODE
18 U.S.C. § 922(g)

9, 10, 14, 16, 18

18 U.S.C. § 924(c)

9, 14
27

18 U.S.C. § 924(e)(1)

1

18 U.S.C. § 3006A(d)(7)
18 U.S.C. § 3582(c)(2)

28

18 U.S.C. § 3583(e)

17

18 U.S.C. § 3584

3, 15, 18, 19, 22, 28

18 U.S.C. § 3621

passim

18 U.S.C. § 3625

16, 30

21 U.S.C. § 841

9, 27

28 U.S.C. § 994(i)(1)

27

28 U.S.C. § 1254(1)

2
11, 12

28 U.S.C. § 2241
RULES

25

Ninth Circuit Rule 36-3(a)
OTHER

passim

28 C.F.R. § 550.55
vi

11

..

..... , .

... . .„ .

62 Fed. Reg. 53690-01 (Oct. 15, 1997)

11

65 Fed. Reg. 80745-01 (Dec. 22, 2000)
..

74 Fed. Reg. 1892-01 (Jan. 14, 2009) ..se:e,
U. S. S .G. § 2B1.1(b) .........

••

a • •. • • • •• ;1141 •.. •"•-• • •••••• 014.4.044'r.

•.• 0,0

.•-••••-••.•.••••••,• . • . ••••••• r!. .. • .. ..

U.S.S.G. § 4B1.2(b) • • •••••••i;•••••4•;Vi-il;'•`iil•VediVe'lf•Voi.i.“

irteiV4ji

vii

... %Wee ieb.W...•!4:••:;i4:.

v• • •••.......,..4.44 .”.•'• 6'44

• • A•S• .. • ••'1:01 •,•••• • • • • .0

12
9

21, 22

No.

IN THE SUPREME COURT
OF THE UNITED STATES

IRVIN MORENO,
Petitioner,

DEWAYNE HENDRIX, Warden,
FCI Sheridan,
Respondent.

On Petition For Writ Of Certiorari To
The United States. Court Of Appeals
For The Ninth Circuit
The petitioner, Irvin Moreno, respectfully requests that a writ of certiorari issue to
review the judgment of the United States Court of Appeals for the Ninth Circuit entered on
December 22, 2020, affirming the denial of habeas corpus relief from his categorical
disqualification from eligibility for a sentence reduction.
1.

Opinions Below
The Oregon district court ordered the petitioner's habeas corpus petition dismissed

for lack of jurisdiction in unpublished orders on June 26, 2018, and September 27, 2018.

1

Appendix 14, 18. On December 23, 2020, the Ninth Circuit held that the district court had
jurisdiction but affirmed the district court on the merits, with one judge dissenting, in a
memorandum opinion. Appendix 1. The Ninth Circuit denied a timely petition for panel
rehearing and rehearing en banc on March 2, 2021. Appendix 20.
Jurisdictional Statement
This Court's jurisdiction is invoked under 28 U.S.C. § 1254(1).
Relevant Constitutional And Statutory Provisions
The constitutional separation of powers "flow[s] from the scheme of a tripartite
government adopted in the Constitution[.]" Stern v. Marshall, 564 U.S. 462, 482-83 (2011).
In the Sentence Reform Act of 1987, Congress required the Bureau of Prisons to
provide prisoners with appropriate substance abuse treatment. 18 U.S.C. § 3621(b) ("The
Bureau [of Prisons] shall make available appropriate substance abuse treatment for each
prisoner the Bureau determines has a treatable condition of substance addition or abuse.")
In 1990, Congress amended the statute to phase in a program of in-prison "residential
substance abuse treatment." 18 U.S.C. § 3621(e). In 1994, Congress added an incentive of
a sentence reduction of up to one year for inmates who successfully complete the program.
The period a prisoner convicted of a nonviolent offense remains in custody
after successfully completing a treatment program may be reduced by the
Bureau of Prisons, but such reduction may not be more than one year from
the term the prisoner must otherwise serve.
18 U.S.C. § 3621(e)(2)(B). The full text of 18 U.S.C. § 3621 (Imprisonment of a convicted
person) is included in the Appendix at 23-25.

Also as part of the Sentencing Reform Act, Congress provided authority for courts
to impose consecutive and concurrent sentences in 18 U.S.C. § 3584. Subsection (c) states,
"Multiple terms of imprisonment ordered to run consecutively or concurrently shall be
treated for administrative purposes as a single aggregate term of imprisonment."
The Bureau of Prisons promulgated a regulation and program statements
implementing the regulation. The regulation narrowed the qualifications for the sentence
reduction beyond the statutorily eligible class of prisoners "convicted of a nonviolent
offense" to exclude prisoners with certain prior convictions:
As an exercise of the Director's discretion, the following categories of
inmates are not eligible for early release:
***

Inmates who have a prior felony or misdemeanor conviction for:
[Listing homicide, robbery, forcible rape, aggravated assault, arson,
kidnaping, and an offense that by its nature or conduct involves sexual abuse
offenses committed upon minors];.. .
28 C.F.R. § 550.55(b) (emphasis added). The regulation also narrowed the qualifications
of statutorily eligible prisoners by creating on a broader swath of disqualifying offenses for
"current" convictions, which disqualified prisoners based on additional current convictions
that were not also disqualifying prior convictions in subsection (4):
Inmates who have a current felony conviction for:
An offense that has as an element, the actual, attempted, or threatened use
of physical force against the person or property of another;
An offense that involved the carrying, possession, or use of a firearm or
other dangerous weapon or explosives (including any explosive material or
3

explosive device); (iii) An offense that, by its nature or conduct, presents a
serious potential risk of physical force against the person or property of
another; . . . .
28 C.F.R. § 550.55(b) (emphases added). The full regulation is incorporated in the program
statement that implements the regulation, Program Statement 5331.02. Appendix 26.
4.

Summary Of Reasons For Granting The Petition
This case presents an important separation of powers issue implicating the length of

incarceration nonviolent prisoners must serve who successfully complete in-prison
residential drug treatment. Congress has spoken plainly to describe persons eligible for the
sentence reduction of up to one year: "a prisoner convicted of a nonviolent offense." 18
U.S.C. § 3621(e)(2)(B). Although this Court approved of the Bureau of Prisons'
administrative authority to expand the class of prisoners disqualified from the sentence
reduction incentive in Lopez v. Davis, 531 U.S. 230 (2001), this case involves an even
further expansion of disqualified prisoners — an expansion that is neither consistent with
the statute nor with the plain language of the applicable regulations. As the dissenting judge
in the Ninth Circuit found, the wording of the regulation — referencing "current felony
conviction" and "prior conviction for a felony or misdemeanor" — leaves no room for
informal disqualifications beyond the plain meaning.
The encroachment of Executive Branch authority beyond the bounds of the statute
and the regulation infringed on legislative prerogatives regarding the length of punishment.
See Abramski v. United States, 573 U.S. 169, 191 (2014) ("The critical point is that criminal
laws are for courts, not for the Government, to construe."); see Crandon v. United States,
4

494 U.S. 152, 177 (1990) (Scalia, J., concurring) ("The law in question, a criminal statute,
is not administered by any agency but by the courts."). Nevertheless, in denying relief, the
majority of the Ninth Circuit deferred to the administrative interpretation without the
requisite application of the rules of construction to the regulation, stating: "BOP's
determination here that Mr. Moreno's 2012 conviction was 'current' was based on its
interpretation of its own regulation, 28 C.F.R. § 550.55(b)(5)(ii), which is an exercise of
discretion allowed under 18 U.S.C. § 3621(e)(2)(B)." Even in the civil context, no
deference is appropriate unless the regulation proves "genuinely ambiguous, even after a
court has resorted to all the standard tools of interpretation." Kisor v. Wilkie, 139 S. Ct.
2400, 2414 (2019).
In the context of implementing a criminal statute, the Ninth Circuit majority, rather
than deferring to the administrative agency, should have engaged in 'full statutory
interpretation of the regulation, including application if needed of the rule of lenity.
Crandon, 494 U.S. at 177 ("The Justice Department, of course, has a very specific
responsibility to determine for itself what this statute means, in order to decide when to
prosecute; but we have never thought that the interpretation of those charged with
prosecuting criminal statutes is entitled to deference."). The rule requiring the Judiciary to
determine the meaning of criminal rules without deference to the Executive Branch
"enforces the separation of powers by foreclosing the executive agency from law-making
beyond what has been authorized and delegated by Congress." Gundy v. United States, 139
S. Ct. 2116, 2123 (2019); see Guedes v. Bureau of Alcohol, Tobacco, Firearms &
5

Explosives, 140 S. Ct. 789, 790 (2020) ("[W]hatever else one thinks about Chevron, it has
no role to play when liberty is at stake.") (Gorsuch, J., statement regarding denial of
certiorari).
Instead of providing an independent judicial construction of the regulation, the
majority below deferred to the administrative construction and applied an unrelated statute
to the regulation. In contrast, the dissent pointed to the failure to construe the plain language
of the regulation and the majority's importation of the concurrency statute to apply far
beyond its narrow administrative purposes. Although this Court permitted a properly
promulgated regulation to limit the scope of § 3621(e) in Lopez, this Court has not allowed
less formal forms of administrative rule-making to trump the plain language of both the
statute and regulation. See Pereira v. Sessions, 138 S. Ct. 2105, 2120 (2018) ("The type of
reflexive deference exhibited in some of these cases is troubling" and "suggests an
abdication of the Judiciary's proper role in interpreting federal statutes.") (Kennedy, J.,
concurring).
This case provides an excellent vehicle for resolving the critical separation of
powers issues where the Judiciary defers to informal Executive Branch determinations that
affect categorical eligibility for a sentence reduction. First, the decision affects a large
number of prisoners who do not receive an incentive to participate in programming and
who end up serving more time than necessary to accomplish the goals of sentencing.
Second, the district courts below have come out differently on the question, with a reasoned
district court opinion concluding, in accord with the dissent, that the plain language of the
6

regulation forecloses treatment of a prior gun conviction as a current offense of conviction.
Lewis v. Daniels, 528 F. Supp. 2d 1099 (D. Or. 2007). Third, the litigation in this case is
unusual because prisoners are generally not represented by counsel and, as a consequence,
the Executive Branch's over-reach evades effective judicial review.
In the alternative, the Court should grant, vacate, and remand the case for the Ninth
Circuit to address the contention that, because the administrative treatment of "current
offense" to include a prior conviction constitutes a substantive rule, the rule is invalid in
violation of the Administrative Procedure Act. In footnote 6 of Lopez, this Court declined
to address whether the promulgation of the regulation violated the APA because it had not
been raised below. In the present case, the issue was squarely presented in the Ninth Circuit,
but the court failed to address the administrative law claims. Just as after Lopez courts
found the same regulation was reviewable under the APA, this Court should provide Mr.
Moreno the opportunity to be heard regarding the informal rule's invalidity for violation
of notice-and-comment and reasoned justification requirements.
5.

Statement Of The Case
A.

Litigation History Of The Sentence Reduction Under 18 U.S.C. § 3621(e)

The legal background of the § 3621(e)(2)(B) sentence reduction incentive provides
necessary context for the issues before the Court.
1.

Background And Purpose Of 18 U.S.C. § 3621(e)

In 1990, Congress mandated the creation of BOP programs to address prisoners'
needs for substance abuse treatment, stating: "The Bureau shall make available appropriate
7

substance abuse treatment for each prisoner the Bureau determines has a treatable condition
of substance addiction or abuse." Crime Control Act of 1990, Pub. L. No. 101-647, § 2903,
104 Stat. 4789, 4913 (codified at 18 U.S.C. § 3621(b)). In 1994, Congress, recognizing that
prisoners were not undertaking the rigorous in-prison residential treatment program,
enacted § 3621(e)(2)(B) to create a sentence reduction incentive of up to one year to
encourage prisoners to enroll in residential substance abuse programs:
2) Incentive for prisoners' successful completion of treatment program.—
Generally.— Any prisoner who, in the judgment of the Director of the
Bureau of Prisons, has successfully completed a program of residential
substance abuse treatment provided under paragraph (1) of this subsection,
shall remain in the custody of the Bureau under such conditions the Bureau
deems appropriate. If the conditions of confinement are different from those
the prisoner would have experienced absent the successful completion of the
treatment, the Bureau shall periodically test the prisoner for substance abuse
and discontinue such conditions on determining that substance abuse has
recurred.
Period of custody.— The period a prisoner convicted of a nonviolent
offense remains in custody after successfully completing a treatment program
may be reduced by the Bureau of Prisons, but such reduction may not be
more than one year from the term the prisoner must otherwise serve.
Violent Crime Control and Law Enforcement Act of 1994, Pub. L. No. 103-322, § 32001,
108 Stat. 1796, 1897 (emphasis added) (codified at 18 U.S.C. § 3621(e)). In addition to
incentivizing participation in treatment, Congress has recognized reduction of prison
overcrowding as a benefit of the program: "To the greatest extent possible, BOP shall
prioritize the participation of nonviolent offenders in the Residential Drug Abuse
Treatment Program (RDAP) in a way that maximizes the benefit of sentence reduction

8

opportunities for reducing the inmate population." Conf Rep. to Consolidated
Appropriations Act of 2010, 155 Cong. Rec. H13631 03, at H13887 (daily ed. Dec. 8,
2009), Pub. L. 111 117, 123 Stat. 3034 (Dec. 16, 2009) (emphasis added).
2.

A Majority Of Circuit Courts Of Appeal Held That The BOP's 1995
Regulation And Program Statement Conflicted With The Statute's
Definition Of A "Nonviolent Offense."

In May 1995, the BOP promulgated a regulation that defined "nonviolent offense"
as the statutory converse of "crime of violence" as defined in 18 U.S.C. § 924(c), while
also categorically disqualifying any prisoner with certain prior convictions. 28 C.F.R.
§ 550.58 (May 1995). At the same time, through a program statement, the BOP
categorically excluded from sentence reduction eligibility persons whose current offense
was for being a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g), or
involved drug trafficking, in violation of 21 U.S.C. § 841 with a two-level specific offense
characteristic for possession of a firearm under U.S.S.G. § 2B1.1(b). BOP Program
Statement No. 5162.02 (July 24, 1995). Asserting that the program statement was
inconsistent with the statutory definition of "nonviolent offense," prisoners brought
successful challenges to the program statement in the Eighth, Ninth, Tenth, and Eleventh
Circuits. Downey v. Crabtree, 100 F.3d 662, 670 (9th Cir. 1996); Martin v. Gerlinski, 133
F.3d 1076, 1079 (8th Cir. 1998); Fristoe v. Thompson, 144 F.3d 627, 631 (10th Cir. 1998);
Byrd v. Hasty, 142 F.3d 1395, 1398 (11th Cir. 1997). The Fourth and Fifth Circuits upheld
the BOP's interpretation. Pelissero v. Thompson, 170 F.3d 442, 447 (4th Cir. 1999);
Venegas v. Henman, 126 F.3d 760, 763 (5th Cir. 1997).
9

Prisoners further challenged disqualifications for early release based on prior
convictions, arguing that § 3621(e) only allowed the BOP to consider the current offense
of conviction for purposes of disqualification. See, e.g., Jacks v. Crabtree, 114 F.3d 983
(9th Cir. 1997). The BOP conceded that the statutory language of § 3621(e) — "convicted
of a nonviolent offense" — referenced only the current offense of conviction but argued that
it nonetheless had authority to designate non-statutory categories of ineligibility. Jacks,
114 F.3d 985 n.2 ("Here, the Bureau concedes that petitioners are eligible under section
3621(e)(2)(B), but argues that they are ineligible under the Bureau's regulation creating an
additional eligibility requirement."). Under the BOP's rationale, courts upheld the
regulation, which barred eligibility for prisoners with prior convictions appearing in the
presentence report for "homicide, forcible rape, robbery, or aggravated assault." Id. at 984
(citing 28 C.F.R. § 550.58).1
3.

The BOP 's 1997 Program Statement And Regulation Failed To
Address The 1995 Regulation's Inconsistencies With Statutory Text
And Congressional Purpose.

After the first wave of litigation, the BOP published an interim rule and
accompanying program statement, effective immediately, that modified the crime of
violence construct by substituting the Director's discretion to disqualify § 922(g) offenders

The companion program statement mirrored the language of the first interim rule,
allowing BOP staff to look to "the FBI Rap Sheet to determine if the inmate has any
previous state or federal convictions for robbery, forcible rape, aggravated assault, or
homicide." BOP Program Statement No. 5330.10 Ch. 6 at 1 (May 25, 1995) (emphasis
added)
10

and drug offenders with a gun enhancement. BOP Program Statement No. 5330.10 Ch. 6
at 1 (Oct. 9, 1997); 62 Fed. Reg. 53690-01 (Oct. 15, 1997). Prisoners again challenged the
offense-of-conviction rules precluding offenses involving firearms, both as retroactively
applied and as violating the statute. The Circuits again split. See Lopez v. Davis, 531 U.S.
230, 238 (2001) (collecting cases).
In Lopez, this Court upheld the BOP's statutory authority to categorically disqualify
additional classes of statutorily eligible prisoners 'from the sentence reduction incentive.
Lopez, 531 U.S. at 244. The Lopez opinion explicitly left unresolved the BOP's compliance
with the Administrative Procedure Act (APA) in promulgating the interim rule. Lopez, 531
U.S. at 244 n.6.
Following Lopez, the Ninth Circuit affirmed a grant of § 2241 relief for sixteen
prisoners who challenged the same interim rule at issue in Lopez under § 553(b) of the
Administrative Procedures Act because it was promulgated without notice-and-comment
compliance. Paulsen v. Daniels, 413 F.3d 999, 1005-06 (9th Cir. 2005). After Paulsen, the
BOP promulgated a final version of the 1997 interim rule in 2000, with essentially identical
language, explaining that the agency was exercising its discretion to disqualify prisoners
that the agency conceded were statutorily eligible:
Thus, even as the Bureau concedes that offenses related to this regulation
are "non-violent" offenses, the implementing statute does not mandate that
all "non-violent" offenders must receive an early release. The statute merely
indicates that the sentence may be reduced by the Bureau of Prisons.
65 Fed. Reg. 80745-01 (Dec. 22, 2000) (emphasis added).

11

Prisoners again brought challenges to the 2000 rule pursuant to § 2241. First,
prisoners asserted that the BOP's failure to articulate a rationale for denying early release
to statutorily eligible prisoners violated § 706 of the APA. In Arrington v. Daniels, the
Ninth Circuit affirmed its jurisdiction to review the petitioners' APA claim, and held that
the BOP's final rule was arbitrary and capricious under § 706(2)(A) because the BOP had
"failed to set forth a rationale for its decision to categorically exclude prisoners convicted
of [firearm possession] offenses." 516 F.3d 1106, 1114 (9th Cir. 2008) (citing Motor
Vehicle Mfrs. Ass 'n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983)).
Prisoners also challenged the BOP's failure to articulate a rationale for relying on
prior convictions to exclude classes of prisoners from the sentence reduction program.
Crickon v. Thomas, 579 F.3d 978, 982 (9th Cir. 2009). As it had in Arrington, the Ninth
Circuit held that the agency's lack of a rationale for excluding statutorily eligible prisoners
from the early release incentive based on prior convictions rendered the rule invalid under
the Administrative Procedures Act. Crickon, 579 F.3d at 982-86. The court observed that
the BOP's professed compliance with congressional intent was "difficult to square with
Congress's expressed intent to provide an incentive to encourage maximum participation
in the BOP's substance abuse programs." Id at 986. However, other Circuits found the
regulation properly promulgated.
On January 14, 2009, the BOP published revised rules governing § 3621(e) sentence
reductions, which were applicable to all prisoners who applied to the program after March
16, 2009. 74 Fed. Reg. 1892-01 (Jan. 14, 2009). The 2009 rule incorporated the provisions
12

contained in the 2000 final rule that the Ninth Circuit invalidated in Arrington, responded
to comments relating to participation in treatment, and added disqualifications. The BOP
also issued new companion program statements. BOP Program Statement No. 5331.11
(Mar. 16, 2009); BOP Program Statement No. 5162.05 (Mar. 16, 2009); BOP Program
Statement No. 5331.02 (Mar. 16, 2009). These rules were upheld in Peck v. Thomas, 697
F.3d 767 (9th Cir. 2012).
The rules continue to provide that, as "an exercise of the Director's discretion,"
inmates with a current felony conviction for an offense involving "the carrying, possession,
or use of a firearm or other dangerous weapon or explosives" are not eligible for early
release under the RDAP incentive. 28 C.F.R. § 550.55(b)(5)(ii) (Mar. 16, 2009). The rules
again permit that, in the Director's discretion, prisoners with prior convictions for
homicide, forcible rape, robbery, aggravated assault, arson, kidnaping, or an offense
involving sexual abuse of minors are ineligible for early release. 28 C.F.R. § 550.55(b)(4)
(Mar. 16, 2009). In 2016, the BOP amended the regulation to place a ten-year limit on the
disqualifying effect of the prior convictions. BOP Program Statement No. 5331.02, CN-1,
Early Release Procedures Under 18 U.S.C. § 3621(e) (April 25, 2016) (disqualifying
"[i]nmates who have a prior felony or misdemeanor conviction for [certain offenses] within
the ten years prior to the date of sentencing for their current commitment").
Under all versions of the regulations and program statements, Mr. Moreno's current
conviction for drug trafficking renders him categorically eligible for a sentence reduction

13

under 28 C.F.R. § 550.55(b)(5), and his prior conviction for being a felon in possession of
a firearm has never been a basis for disqualification under 28 C.F.R. § 550.55(b)(4).
B.

Petitioner's Plea And Sentencing

On February 23, 2012, the district court for the Western District of Washington
imposed a sentence of 37 months incarceration and a three-year term of supervised release
upon Mr. Moreno's plea of guilty to possession of a firearm by a felon, in violation of 18
U.S.C. §§ 922(g) and 924(c). United States v. Moreno, No. 2:11CR00376TSZ, Docket 33
(W.D. Wash. Feb. 23, 2012). On March 23, 2016, Mr. Moreno was arrested on a criminal
complaint on drug trafficking charges that resulted in an indictment on March 31, 2016.
United States v. Moreno, No. 2:16CR92-RSL, Docket 1 and 12 (W.D. Wash., Mar. 23 and
31, 2016). The parties entered into a plea agreement, which provided for joint
recommendations of the mandatory minimum five-year sentence for drug trafficking and a
recommendation of six months for the supervised release violation on the prior case to run
concurrently with the drug sentence. Id. at Docket 27.
On November 15, 2016, the Honorable Robert S. Lasnik imposed a sentence of 60
months on the 2016 drug charge with a recommendation that Mr. Moreno be designated to
serve his sentence at FCI Sheridan and participate in the Bureau of Prisons' in-prison
residential drug abuse program known as RDAP. Moreno, No. 2:11CR00376TSZ, Docket
33. On the same day, Judge Lasnik entered judgment in the 2012 case for violation of
supervised release by committing the drug offense, sentencing Mr. Moreno to six months
to run concurrently with the drug case. Id. at Docket 50. Nothing in the drug case's
14

complaint or plea agreement suggests that a firearm was involved in the 2016 offense. See
Id at Docket 1 and 24.
C.

Petitioner's Pro Se Exhaustion Of Remedies

On May 15, 2017, after having been found ineligible for the § 3621(e) sentence
reduction, Mr. Moreno sought informal resolution of the RDAP coordinator's finding.
Moreno v. Ives, Ninth Circuit No. 18-35888, Docket 14 at 41. After this request was
summarily rejected, Mr. Moreno sought further review from the Warden on August 22,
2017. Id. at 42, 43. In denying this request on August 28, 2017, the Warden relied on
subsection (b)(5) of the regulation regarding "current felony conviction." Id. at 44. On
September 1, 2017, Mr. Moreno appealed to the Regional Director, stating that the
supervised release violation involved a prior conviction, not his current conviction. Id. at
45.
On October 27, 2017, the Regional Director for the first time indicated that the
determination of ineligibility would be upheld based on a statute separate from the sentence
reduction provisions of § 3621(e) and its implementing rules:
Program Statement 5880.28 CN 5, Sentence Computation Manual, Multiple
Sentences of Imprisonment, citing, Title 18 U.S.C. 3584 subsection (c),
provides for the aggregation of multiple terms of imprisonment. Specifically,
when a term of imprisonment is imposed on a defendant who is already
subject to an undischarged term of imprisonment, the sentences shall be
aggregated to form a single sentence for computation purposes. The
Designation and Sentence Computation Center (DSCC) certified your
sentence computation correct on December 14, 2016.

15

Id. at 46. On November 16, 2017, Mr. Moreno appealed to the Central Office of the BOP,
explaining that the aggregation statute relates to computing release dates and does not
transform a prior conviction into a "current offense." On January 8, 2018, the
Administrator of National Inmate Appeals denied the appeal, stating:
We find you received proper early release consideration in compliance with
the governing program statements applicable to RDAP and early release
procedures, as well as, federal regulations set forth in 28 C.F.R. § 550.55,(b)
(5) (i) and (iii).
Id. at 48.
D.

Petitioner's Pro Se Requests For Habeas Corpus Relief

After successfully completing the in-prison residential treatment component of
RDAP, Mr. Moreno filed in the district court for habeas corpus relief on March 23, 2018.
Appendix 14. He argued that, under the plain meaning of "current felony conviction" and
"prior felony conviction," his prior § 922(g) conviction could not provide a basis for
exclusion under the applicable regulation and well-established law on the meaning of
"prior conviction." He asserted that the aggregation of sentences provision only provided
guidance on calculating the length of the total term of imprisonment, with no relevance to
eligibility under § 3621(e) and its implementing rules.
Without requiring the government to, respond, the district court adopted the
recommendation of the magistrate judge and summarily dismissed the petition for lack of
jurisdiction on June 26, 2018. In reliance on 18 U.S.C. § 3625, the district court held that
"a decision regarding individual eligibility for a post-RDAP reduction in sentence is not

16

subject to judicial review." Appendix 16. The district court declined to issue a certificate
of appealability. Id. Mr. Moreno filed his notice of appeal on October 22, 2018.
E.

Proceedings On Appeal

Mr. Moreno appealed the court's ruling to the Ninth Circuit, where he received
appointed counsel for the first time in his habeas proceedings. Moreno, Ninth Circuit No.
18-35888, Docket 14 at 50-51. In his opening brief filed on July 1, 2020, Mr. Moreno again
maintained that the BOP had violated the plain meaning of the sentence reduction statute
and its implementing regulation by treating his prior conviction as a current conviction.2 In
the alternative, he asserted that the BOP's decision to transform a sanction for supervised
release violation into a "current," rather than a "prior" conviction amounted to arbitrary
rulemaking without notice-and comment, in violation of §§ 553 and 706 of the
Administrative Procedures Act.
The two judge majority determined that the district court had erred by finding that
it lacked jurisdiction, but concluded on the merits that Mr. Moreno's supervised release
violation rendered him ineligible for the § 3621(e) sentence reduction. Appendix 1-6.
Accordingly, the court reversed the district court's jurisdictional holding and remanded the
matter to the district court with instructions to deny the petition. In so ruling, the majority

Mr. Moreno's commencement of his term of supervised release years after he filed
for administrative relief altered the requested remedy in his opening brief to encompass
reduction of the term in the interests of justice under 18 U.S.C. § 3583(e). See Reynolds v.
Thomas, 603 F.3d 1144, 1148 (9th Cir. 2010) (citing United States v. Johnson, 529 U.S.
53, 60 (2000).
2

17

observed that the `GOP's interpretation of 'current' to mean any conviction for which the
inmate is still serving time is consistent with governing law." Appendix 5 (citing United
States v. Paskow,, 11 F.3d 873, 881-83 (9th Cir. 1993), and 18 U.S.C. § 3584). Specifically,
the "BOP followed the plain meaning of § 3584(c)" the sentencing aggregation statute, "to
aggregate Mr. Moreno's two sentences." Appendix 6. The majority deferred to the BOP's
position as "based on its interpretation of its own regulation, 28 C.F.R. § 550.55(b)(5)(ii),
which is an exercise of discretion allowed under 18 U.S.C. § 3621(e)(2)(B)." Id.
The court also held that it lacked jurisdiction to adjudicate Mr. Moreno's claim
under the Administrative Procedures Act. The majority explained that "Congress has
specified that decisions regarding Bureau of Prison's individualized determinations of
Residential Drug Abuse Treatment Program (RDAP) are not reviewable under the
Administrative Procedures Act." Id. at 20 (citing Reeb v. Thomas, 636 F.3d 1224, 1227
(9th Cir. 2011)).
Judge Collins dissented from the two judge majority's opinion, stating that he
would have reversed the district court's ruling because the BOP — whose interpretation the
district court and appellate majority relied on — "incorrectly interpreted a federal statute
when it denied Petitioner-Appellate Irvin Moreno's request for early release under 18
U.S.C. § 3621(e)(2)." Appendix 7. The dissent recognized that the BOP's interpretation of
its own regulation relied not on permissible discretion, but rather on the flawed assumption
that "§ 3584(c) required it to deem the six-month concurrent sentence on the § 922(g)
offense as being a 'current' sentence for purposes of § 550.55(b)(5) throughout the entirety
18

of Moreno's 60-month aggregate term of incarceration." Appendix 10 (emphasis in
original).
The dissent deemed the BOP's construction of § 3584(c) "plainly incorrect,"
observing that "[n]othing in the language of the statute supports the BOP's position that
§ 3584(c) requires it to treat the aggregate term of incarceration as fully applicable to each
count of conviction." Appendix 10 (emphases in original). The dissent recognized that,
notwithstanding the BOP's discretionary authority to establish new restrictions to
prisoners' eligibility for reduced sentences, the BOP lacked the authority to make
determinations that conflict with the plain, unambiguous terms of existing regulations.
"Having adopted a regulation that distinguishes between 'current' and 'prior' convictions,
the BOP may not then proceed on the legally erroneous view that Congress, in § 3584(c),
has dictated what counts as a 'current' conviction and for how long." Appendix 13 n.2.
Following the Ninth Circuit's ruling, Mr. Moreno timely filed a Petition for Panel
Rehearing and for Rehearing En Banc contending that the majority opinion violated the
separation of powers by deferring to the Executive Branch interpretation instead of
construing the plain language of the regulation. No. 18-35888, Dkt. No. 36 (9th Cir. Feb.
5, 2021). Judges Bybee and Bastian of the majority voted to deny the petition for panel
rehearing and recommended denial of the petition for rehearing en banc. 18-35888, Dkt.
No. 37. Judge Collins voted to grant the petition for panel rehearing to deny the petition
for rehearing en banc. Id.

19

6.

Reasons For Granting The Writ
A.

This Case Presents An Issue Of National Importance Regarding The
Expansion Of Executive Branch Law-Making Authority By Deference
To The Agency's Failure To Follow The Plain Language Of Its
Regulation As Well As The Underlying Criminal Statute.

In Bowles v. Seminole Rock & Sand Co., this Court stated that an administrative
agency's interpretation of its own regulation "becomes of controlling weight unless it is
plainly erroneous or inconsistent with the regulation." 325 U.S. 410, 414 (1946). The
standard articulated in Seminole Rock has, over time, been recognized to apply to all
administrative interpretations of regulations under judicial review. Auer v. Robbins, 519
U.S. 452, 458 (1997). Having now "metastasized" beyond "Seminole Rock's humble
origins," the doctrine known as Seminole Rock deference, or Auer deference, has faced
sharp criticism for facilitating a "'transfer of the judge's exercise of interpretive judgment
to the agency.'" United Student Aid Funds, Inc. v. Bible, 136 S. Ct. 1607, 1608 (2016).
(Thomas, J., dissenting from denial of certiorari) (quoting Perez v. Mortg. Bankers Ass'n,
575 U.S. 92, 124 (2015) (Thomas, J., concurring)). "Members of this Court have repeatedly
called for its reconsideration in an appropriate case." Id (collecting opinions from Chief
Justice Roberts and Justices Alito, Scalia, and Thomas).
In Kisor v. Wilkie, this Court unanimously agreed to revisit the scope of Auer
deference in order to "clear up some mixed messages we have sent" about the doctrine's
application. 139 S. Ct. 2400, 2414 (2019). Clarification was needed to correct the common
practice by which courts have incorrectly afforded "Auer deference without significant

20

analysis of the underlying regulation" and "without careful attention to the nature and
context of the interpretation," suggesting a mere "caricature of the doctrine, in which
deference is 'reflexive.'" Id. at 2414-15 (collecting cases).
To preserve "a strong judicial role in interpreting rules" required by the
constitutional separation of powers, the Kisor opinion reiterated strict limitations that
"cabin[] Auer' s scope in varied and critical ways." Id. at 2418. Before Auer deference can
apply to an administrative interpretation, Kisor teaches that a court must first ensure that
(1) "the regulation is genuinely ambiguous" after "exhaust[ing] all the 'traditional tools' of
construction,'" (2) the agency's interpretation of an ambiguous regulation is "reasonable";
and (3) the interpretation, even if reasonable, satisfies the court's "independent inquiry into
whether the character and context of the agency interpretation entitles it to controlling
weight." Id. Kisor therefore prescribed a three-step test that courts must follow before
applying Auer deference to an agency's interpretation of its own regulation. Id. at 2420
("Courts first decide whether the rule is clear; if it is not, whether the agency's reading falls
within its zone of ambiguity; and even if the reading does so, whether it should receive
deference.")
Although Kisor aimed to "clear up mixed messages," post-Kisor rulings among the
federal circuit courts of appeal have so far demonstrated further confusion and discord.
Courts have now come into sharp disagreement, for example, as to whether Kisor requires
reconsideration and invalidation of Application Note 1 to U.S.S.G. § 4B1.2(b) on grounds
that it includes elements beyond the scope of § 4B1.2(b)'s definition of "controlled
21

substance offense."' Furthermore, the Circuits disagree as to whether to even apply Kisor's
third step, requiring an independent inquiry into content and context.4
The issue of when and whether courts defer to agencies such as the BOP remains
vitally important to the national interest in maintaining government transparency and
accountability through the constitutionally-mandated separation of powers. Here, the BOP
formulated a categorical ground to deny Mr. Moreno for a § 3621(e) sentence reduction
that he qualified for under the agency's own regulation as written. Rather than referencing
the language of its own regulation, 28 C.F.R. 550.55(b), or the language statute that
authorizes it, 18 U.S.C. § 362 i(e)(2)(B), the BOP instead chose to rely on 18 U.S.C. §
3584(c), a statute that governs judicial sentencing determinations with no clear relevance
to prison programming. The majority below simply deferred to the BOP's interpretation of
an extraneous sentencing statute without first determining (1) that the BOP regulation was

The Third, Sixth, and D.C. Circuits have invalidated Application Note 1 following
more rigorous post-Kisor reconsideration. United States v. Nasir, 982 F.3d 144 (3d Cir.
2020); United States v. Havis, 927 F.3d 382, 385-87 (6th Cir. 2019); United States v.
Winstead, 890 F.3d 1082, 1090-92 (D.C. Cir. 2018). Other circuits, however, have held
that Kisor did not require reconsideration of earlier rulings that upheld Application Note 1
as consistent with § 4B1.2(b). United States v. Martinez, 602 F.3d 1166, 1174 (10th Cir.
2010); United States v. Adams, 934 F.3d 720, 729 (7th Cir. 2019); United States v. Lewis,
963 F.3d 16, 24 (1st Cir. 2020); United States v. Crum, 934 F.3d 963, 966 (9th Cir. 2019),
United States v. Tabb, 949 F.3d 81, 87 (2d Cir. 2020).
The First and Eighth Circuits have applied Auer deference without mentioning or
complying with Kisor's third step. Compare United States v. Broadway, 815 F. App'x 95,
96 (8th Cir. 2020); United States v. Lewis, 963 F.3d 16 (1st Cir. 2020), with Nat'l Lifeline
Ass'n v. Fed. Commc'ns Comm'n, 983 F.3d 498, 511 (D.C. Cir. 2020) ("We should make it
clear, however, that even if the rules are seen to be genuinely ambiguous, "the character
and context of the agency interpretation entitles it to controlling weight.")
4

22

sufficiently ambiguous to require importation of outside statutory definitions, (2) that the
BOP's interpretation was "reasonable," and (3) that deference is warranted following an
independent inquiry into the content and context of the BOP's interpretation.
The opinions below demonstrate that, although "the winds have changed" following
Kisor, many courts nonetheless provide inadequate judicial review under a "slumber of
reflexive deference." United States v. Nasir, 982 F.3d 144, 177 (3d Cir. 2020) (Bibas, J.,
concurring). Mr. Moreno's petition offers this Court the much-needed opportunity to
correct the lower courts' inconsistent adherence to the clear interpretive mandate spelled
out in Kisor.
B.

This Case Presents An Issue Of National Importance Because The
Majority's Opinion Undermines Congressional Action To Provide An
Incentive For Treatment While Easing Over-Incarceration Of
Nonviolent Offenders In Federal Prisons.

The majority below premised its opinion on an interpretation of § 3621(e)(2)(B) that
serves only to undermine and contradict Congress's original purpose behind permitting
RDAP sentence reductions. After the initial authorization of residential drug treatment,
Congress intended the creation of the sentence reduction incentive through its 1994
amendment to encourage increased participation by federal prisoners in the demanding
program. Violent Crime Control and Law Enforcement Act of 1994, Pub. L. No. 103-322,
§ 32001, 108 Stat. 1796, 1897. And Congress in 2009 explicitly recognized the concurrent
benefit of reduction of the federal prison population by directing that nonviolent offenders
should receive the maximum available sentence reduction: "To the greatest extent possible,

23

BOP shall prioritize the participation of nonviolent offenders in the Residential Drug
Abuse Treatment Program (RDAP) in a way that maximizes the benefit of sentence
reduction opportunities for reducing the inmate population." Conf Rep. to Consolidated
Appropriations Act of 2010, 155 Cong. Rec. 1113631 03, at H13887 (daily ed. Dec. 8,
2009), Pub. L. 111 117, 123 Stat. 3034 (Dec. 16, 2009) (emphasis added).
The Ninth Circuit majority's decision to follow the BOP in counting a supervised
release violation as a "current" rather than a "prior" violent felony conviction flies in the
face of Congress's clearly stated intentions. Not only is this interpretation counter-textual
to the BOP's own regulation, it also erodes the fundamental purposes for which Congress
enacted the sentence reduction statute. The majority's decision can only hinder the
purposes Congress envisioned by discouraging enrollment in drug treatment programs and
by contributing to overcrowding. The Court should grant Mr. Moreno's petition in order to
ensure that § 3621(e)(2)(B) provides the benefits Congress intended of mitigating the
serious social harms of drug addiction, permitting earlier release for nonviolent offenders,
and reducing prison overcrowding.
The Court should also grant a writ of certiorari because of the need for national
uniformity on how the Bureau of Prisons executes the sentences of prisoners throughout
the federal prison system. District courts, usually with pro se petitioners against
government attorneys, have approved the agency's interpretation of the regulation with
minimal analysis. The Lewis opinion provides a conflicting view based on the plain
language of the regulation. 528 F. Supp. 2d 1099. The majority's memorandum disposition
24

does not settle the matter even in the Ninth Circuit because it is "not precedent." Ninth
Circuit Rule 36-3(a). To avoid disparities in treatment of similar situated defendants, this
Court should grant certiorari to assure national uniformity in administering sentence
reductions.
C.

The Present Case Provides An Excellent Vehicle For Reviewing The
Important Issues At Stake.

Mr. Moreno's circumstances provide an ideal opportunity for this Court to address
timely and pressing concerns regarding the separation of powers and the role of the
judiciary in interpreting the law as well as Congress's express goals of treating substance
abuse, reducing long sentences, and mitigating prison overcrowding. The facts of this case
present a paradigmatic example an agency over-reaching its administrative authority while
the majority below effectively averted its gaze through deference to the Executive Branch.
The Court should grant Mr. Moreno's petition to send a clear message regarding the
limitations on administrative lawmaking and the importance of effective judicial review.
The administrative record in this case demonstrates that the pro se prisoner
consistently and emphatically presented the argument regarding the plain language of the
regulation requiring that he be considered categorically eligible for the § 3621(e) sentence
reduction. With counsel on appeal, the issues were fully developed based on the plain
language of the applicable statutes and regulation as well as the administrative law grounds
for relief, as authorized by the appellate order of appointment. Once the Ninth Circuit
majority deferred to the BOP's interpretation without applying the rules of construction to

25

the regulation, Mr. Moreno raised the separation of powers and limitations on
administrative law-making raised here, to no avail. The issues are squarely raised for this
Court's resolution.
D.

The Majority Opinion Is Incorrect.

Applying the methodology directed in Kisor, the plain language of the regulation
resolves Mr. Moreno's claims in his favor. The Court instructed that courts should "exhaust
all the 'traditional tools' of construction" and only defer to the agency if the regulation
were "genuinely ambiguous." Kisor, 139 S. Ct. 2400 at 2414 ("And when we use that term,
we mean it—genuinely ambiguous, even after a court has resorted to all the standard tools
of interpretation.").
Here, the plain language of the regulation should resolve the matter in favor of Mr.
Moreno, as the district court did in Lewis, 528 F. Supp. 2d at 1099. In that case, addressing
the identical question before the Court here, the judge stated: "The question presented here,
however, does not involve an inmate who possessed a firearm in connection with his
current offense, but rather one who has a prior conviction for possessing a firearm." Id. at
1101. The judge elaborated on the plain meaning of the relevant terms:
It is true that petitioner has been serving a concurrent eighteen-month
supervised release violation term "imposed in connection with the prior
firearms offense." . . . However, that firearms conviction is undeniably a
"prior offense," and not a current offense.
Id at 1001 n.2. The court found that the text to the BOP's regulation foreclosed the BOP's
position that a prior conviction for felon in possession of a firearm can disqualify a

26

defendant from early release eligibility. Lewis, 528 F. Supp. 2d at 110 ("[T]he BOP
improperly deemed petitioner ineligible for a discretionary sentence reduction under 18
.U.S.C. § 3621(e)(2)(B).").
The plain language of the regulation is fully supported by its context. The term
"prior conviction" has an unmistakable meaning in federal criminal law. In addition to the
dictionary difference between "current" and "prior," Congress routinely legislates using
"prior" convictions to apply to offenses resulting in violated terms of supervised release: a
conviction underlying a term of supervised release can be one "of two or more prior
Federal, State, or local felony convictions" under the career offender definition in 28
U.S.C. § 994(i)(1); one of "three previous convictions" under the armed career criminal
enhancement in 18 U.S.C. § 924(e)(1); and a "prior conviction" under the many Controlled
Substance Act enhancements under 21 U.S.C. § 841(b). The Ninth Circuit majority
considers the supervised release offense to be a "current" offense even though it
unquestionably would be treated as a "prior" under all three of these statutes.
And the legislative purpose is entirely consistent with the plain meaning and context
of the regulation. Congress wanted more prisoners to participate in residential treatment
and wanted statutorily eligible prisoners to have the benefit of sentence reductions while
easing the costs and attendant social problems of prisoners serving more time than needed
to accomplish the legitimate goals of sentencing.
In the face of the plain language, context, and legislative purposes, the majority's
deference to the Bureau of Prisons' claim that a separate and unrelated statute — 18 U.S.C.
27

§ 3584(c) — requires that a prior conviction must be considered "current" finds no support.
The original authorizing statute made Mr. Moreno eligible under the plain meaning of
"convicted of a nonviolent offense." The regulation, on its face, continues with Mr. Moreno
as an eligible prisoner. As the dissenting judge stated: "Indeed, nothing in the language of
§ 3584(c) suggests that the statute says anything about the relationship between the
aggregate term of imprisonment and each constituent individual charge that produced it."
Appendix 11. "Section 3584(c) does not speak to the charge-allocation issue, and it does
not replace the courts' allocations, as reflected in the sentencing orders, with concurrent,
identical aggregate sentences on each and every charge." Id (citing United States v.
Llewlyn, 879 F.3d 1291, 1295 (11th Cir. 2018) (for purposes of sentencing reductions under
18 U.S.C. § 3582(c)(2), § 3584(c) "refers to the Bureau of Prisons' administrative duties,
such as computing inmates' credit for time served" (collecting cases)); see also United
States v. Haymond, 139 S. Ct. 2369, 2382 (2019) (recognizing that rehabilitative postprison supervised release, unlike parole, does not "replace a portion of the defendant's
prison term.").
The Court should grant certiorari because the majority below ruled incorrectly in a
manner that assures the agency will continue to unlawfully disqualify prisoners intended
to receive an incentive in an area that evades review due to prisoners' lack of resources to
litigate against the power of the federal agency.

28

E.

In The Alternative, The Court Should Grant The Writ, Vacate The
Decision Below, And Remand For The Lower Court To Address The
Administrative Procedure Act In The First Instance.

In footnote 6 of its opinion in Lopez, this Court left open the question of whether
the regulation at issue was validly promulgated under the Administrative Procedure Act.
531 U.S. at 244 n.6. After Lopez, the Ninth Circuit upheld a district court determination
that the Bureau of Prisons violated the notice-and-comment provisions of the APA in
Paulsen, supra, and later held that the regulation violated the requirements of an
administrative records establishing a valid basis for the regulations in Arrington, supra,
and Crickon, supra. Other Circuits disagreed on the merits but also found the BOP's rules
subject to APA review. See, e.g., Licon v. Ledezma, 638 F.3d 1303, 1311 (10th Cir. 2011);
Handley v. Chapman, 587 F.3d 273, 276-77 (5th Cir. 2009); Gardner v. Grandolsky, 585
F.3d 786, 792 (3d Cir. 2009); Gatewood v. Outlaw, 560 F.3d 843, 847 (8th Cir. 2009).
The extension of a non-statutory categorical sentence reduction disqualification for
a sentence reduction incentive of up to one year constitutes a substantive, or legislative,
rule. See Perez v. Mortg. Bankers Ass 'n 575 U.S. 92, 96 (2015) ("Rules issued through the
notice-and-comment process are often referred to as 'legislative rules' because they have
the 'force and effect of law.") (quoting Chrysler Corp. v. Brown, 441 U.S. 281, 302-03
(1979)). The unwritten rule expanding current offense disqualifications to include prior
convictions where there is a supervised release violation has the force and effect of law,
leaving BOP staff with no discretion in denying eligibility for up to one year of freedom.
See Christensen v. Harris County, 529 U.S. 576, 588 (2000) (informal expansion of a
29

regulation by an opinion letter would "permit the agency, under the guise of interpreting a
regulation, to create de facto a new regulation.").
The lower court claimed that, contrary to the abundant authority reviewing BOP
regulations under the Administrative Procedure Act, review was barred under 18 U.S.C.
§ 3625. Appendix 15-16 (citing Reeb v. Thomas, 636 F.3d 1224, 1228 (9th Cir. 2011)). But
in Reeb, the court explicitly recognized authority to provide judicial review "for allegations
that BOP action is contrary to established federal law, violates the United States
Constitution, or exceeds its statutory authority." Reeb, 636 F.3d at 1228. Mr. Moreno's
claim was that the informal rule was contrary to the Administrative Procedure Act and
exceeded the agency's statutory authority. As Congress stated in promulgating § 3625,
"The phrase 'determination, decision, or order' is intended to mean adjudication of specific
cases as opposed to promulgation of generally applicable regulations." 1984 U.S. Code &
Cong. News, at 3332; see also id. at n.363 ("The APA continues to apply to regulationmaking authority of the Bureau of Prisons.").
The Ninth Circuit failed to provide a merits ruling on the alternative APA ground
that this Court recognized as open in Lopez and that the Circuits have generally recognized
applies to BOP rulemaking. If the Court does not grant certiorari based on the plain
language of the regulations, the Court should grant the writ, vacate the decision below, and
remand for a decision on the merits of the APA claim.

30

7.

Conclusion
For the foregoing reasons, the Court should issue a writ of certiorari.
Dated this 28th day of May, 2021.

Stephen I . Sady
Attorney for Petitioner
Jacob Sweet
Research and Writing Attorney

31

